TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Efforts to Identify and Process Potential
                 Joint Committee on Taxation Cases Can Be
                                  Improved



                                      September 19, 2006

                              Reference Number: 2006-30-161




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 19, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Efforts to Identify and Process Potential Joint
                                Committee on Taxation Cases Can Be Improved (Audit # 200630002)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 identify and process potential Joint Committee on Taxation (JCT) cases. The overall objective
 of this review was to determine whether refunds that met the criteria for JCT review were
 correctly identified and properly reported.

 Impact on the Taxpayer
 Internal Revenue Code (I.R.C.) Section (§) 64051 provides the JCT with the responsibility and
 authority to review any proposed refund or credit of income or estate and gift taxes or certain
 other taxes in excess of $2 million. To accomplish this responsibility, the I.R.C. also requires the
 submission of reports by the IRS to the JCT for cases involving refunds of tax in excess of $2
 million. We determined that current IRS procedures do not ensure all refund cases having JCT
 potential are identified. This impedes the JCT’s ability to determine whether the many
 provisions of the tax law operate as intended.

 Synopsis
 Specifically, I.R.C. § 6405(a) provides that no refund or credit of income, estate, gift, or certain
 other types of taxes will be made until after 30 calendar days from the date a report is submitted
 to the JCT. Certain refunds, known as tentative refunds, can arise from the carryback of net



 1
     26 U.S.C. § 6405 (2002).
                                  Efforts to Identify and Process Potential
                           Joint Committee on Taxation Cases Can Be Improved



operating losses,2 capital losses, or certain credits. In these cases, I.R.C. § 6405(b) allows the
refund to be made to the taxpayer before a report is forwarded to the JCT. According to tax
statistics, 2.5 million corporations reported net losses of over $489 billion for Fiscal Year 2002,
and over 1.8 million individual income tax returns were filed with negative adjusted gross
income3 during Tax Year 2003.
Not all potential JCT cases were identified and reported properly. Specifically, 20 of 58 refunds
included in our judgmental samples had not been identified as having JCT potential by the IRS
and were not subsequently reported to the JCT. These 20 refunds totaled $110,311,126, an
average refund of $5,515,556.

Recommendation
We recommended the Commissioner, Wage and Investment Division, analyze the potential JCT
cases identified during the review to determine the controls that need to be addressed. Among
the measures that could be considered are (1) reviewing and revising the various Internal
Revenue Manual sections that address the identification of potential JCT cases to ensure all cases
are identified, (2) obtaining periodic computer extracts from the IRS computer system to identify
all large-dollar refunds, and (3) adding an entry, where appropriate, to the history section of the
taxpayer’s account to notate that a refund being processed could have JCT review potential.

Response
Management agreed to analyze the potential JCT cases identified during our review to determine
if any controls or procedures need to be changed or modified. Management also agreed to
consider each of the three actions contained in our recommendation after completion of their
analysis. Management stated that adoption of these or other corrective actions will depend on
the outcome of their analysis. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-8500.




2
  A benefit in the tax law that permits a business to carry an operating loss back 2 years or forward 20 years to apply
against a profitable year to reduce the business’ tax liability.
3
  Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted.
                                                                                                                      2
                                      Efforts to Identify and Process Potential
                               Joint Committee on Taxation Cases Can Be Improved




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Current Internal Revenue Service Procedures Do Not Ensure
          All Refund Cases Having Joint Committee on Taxation Potential
          Are Identified ................................................................................................Page 3
                    Recommendation 1:..........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV –Tax Form Comparison ..........................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 14
                Efforts to Identify and Process Potential
         Joint Committee on Taxation Cases Can Be Improved




                   Abbreviations

I.R.C.          Internal Revenue Code
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
JCT             Joint Committee on Taxation
NOL             Net Operating Loss
TY              Tax Year
                                  Efforts to Identify and Process Potential
                           Joint Committee on Taxation Cases Can Be Improved




                                             Background

In 1926, Congress enacted legislation that provided for a Congressional Joint Committee on
Internal Revenue Taxation. The name was changed in 1976 to the Joint Committee on Taxation
(JCT). As prescribed by statute, the JCT has the following duties:
    1. To investigate the operation and effects of internal revenue taxes and the administration
       of such taxes.
    2. To investigate measures and methods for the simplification of such taxes.
    3. To make reports to the House Committee on Ways and Means and the Senate Committee
       on Finance on the results of such investigations and studies and to make
       recommendations.
    4. To review any proposed refund or credit of income or estate and gift taxes or certain
       other taxes set forth in Internal Revenue Code (I.R.C.) Section (§) 64051 in excess of
       $2 million.
It should be noted that I.R.C. § 6405 provides the JCT with oversight, not approval, authority of
refunds in excess of $2 million. Specifically, § 6405(a) provides that no refund or credit of
income, estate, gift, or certain other types of taxes will be made until after 30 days from the date
a report is submitted to the JCT. However, some refunds, known as tentative refunds, can arise
from the carryback of net operating losses2 (NOL), capital losses, or certain credits. In these
cases, I.R.C. § 6405(b) allows the refund to be made to the taxpayer before a report is forwarded
to the JCT. In addition, refunds of estimated or withheld income tax that are made without first
examining the return are not subject to JCT review. Therefore, not all refunds of $2 million are
subject to the JCT review process.
A refund or credit subject to JCT review can be claimed by either an individual or a corporate
taxpayer. Each group of taxpayers has several tax forms available with which to file their refund
requests, depending on such factors as the tax matter that generated the refund, the number of tax
years involved, and how quickly the taxpayer wishes to receive the money. Appendix IV
identifies the various tax forms, their requirements, and their characteristics.




1
 26 U.S.C. § 6405 (2002).
2
 A benefit in the tax law that permits a business to carry an operating loss back 2 years or forward 20 years to apply
against a profitable year to reduce the business’ tax liability.
                                                                                                              Page 1
                                 Efforts to Identify and Process Potential
                          Joint Committee on Taxation Cases Can Be Improved



This review was performed at the Holtsville, New York, and Ogden, Utah, Internal Revenue
Service (IRS) campuses3 during the period January through May 2006. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 The data processing arms of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                                 Efforts to Identify and Process Potential
                          Joint Committee on Taxation Cases Can Be Improved




                                      Results of Review

Current Internal Revenue Service Procedures Do Not Ensure All
Refund Cases Having Joint Committee on Taxation Potential Are
Identified
The JCT’s web site states, “One of the important functions performed by the Joint Committee
[on Taxation] staff is to determine whether the many provisions of the tax law operate as
intended, or cause any unintended administrative, interpretive, or statutory problems.” One of
the ways in which this is accomplished is the refund review mechanism, which requires the
submission of reports by the IRS in cases involving refunds of tax in excess of $2 million.
To accomplish its mission, the JCT must rely on the IRS to identify, process, and report on all
refund cases that meet the statutory requirements of I.R.C. § 6405. The JCT does not have
access to taxpayer data or IRS records to identify or determine on its own the number of reports
it should receive over any given time period. For instance, during the period October 1, 2003,
through September 30, 2004, the JCT received 1,163 reports from the IRS covering almost
$23 billion in refunds. This represented an increase of 514 reports (126 percent) from the
number received during the prior period (October 1, 2002 – September 30, 2003). However,
according to tax statistics, 2.5 million corporations reported net losses of over $489 billion for
the period (July 1, 2002 – June 30, 2003), and over 1.8 million individual tax returns were filed
with negative adjusted gross income4 during Tax Year 2003.
We requested a computer extract from the IRS Master File5 of large-dollar refunds for both
individual and business taxpayers.6 We analyzed the data received to try to identify only those
refunds that appeared to have JCT potential. We sent the resulting sample data to the IRS to
determine if its records indicated a report had been made to the JCT for each taxpayer.
We found that 20 of the 58 refunds included in our sample had not been identified by the IRS
and subsequently reported to the JCT. These 20 refunds totaled $110,311,126, an average refund
of $5,515,556. Figure 1 illustrates the results of our sample.




4
  Adjusted gross income is calculated after certain adjustments are made but before standard or itemized deductions
and personal exemptions are subtracted.
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
6
  See Appendix I for details concerning the audit testing.
                                                                                                            Page 3
                                Efforts to Identify and Process Potential
                         Joint Committee on Taxation Cases Can Be Improved



                               Figure 1: Results of Sample Review
                                                             Businesses   Individuals      Totals
Number that appeared to meet JCT criteria                         44          14            58
Number the IRS identified for JCT review                          35          3             38
Number not identified that appear to meet                             9       11            20
JCT criteria
Refund totals for cases not identified for JCT              $62,673,226   $47,637,900   $110,311,126
review
Source: Treasury Inspector General for Tax Administration analysis.

The IRS faces several problems in attempting to identify correctly and properly all potential JCT
refund cases.
    •   The necessity of expediting certain large-dollar refunds to avoid interest payments
        lessens the time to identify JCT cases. As noted previously, corporate and individual
        taxpayers have a choice of tax forms available to use in requesting a refund of previously
        paid taxes. Some of these tax forms have strict timeliness standards for processing the
        refund payment or the IRS will be required to pay the taxpayer additional interest on the
        refund. In addition, the dollar amount of the requested refund could cause the refund to
        fall under the same strict timeliness standards.
    •   A taxpayer’s choice of form(s) on which to request a refund(s) affects the IRS’
        ability to identify JCT cases. Taxpayers are not required to consolidate their refund
        requests on one tax form. If they so desire, they can elect to file refund requests for each
        tax year involved on a separate and distinct tax form. However, multiple tax years
        involving the same type of tax are combined for JCT identification purposes. Therefore,
        refunds for a taxpayer who files 3 separate amended tax returns may not be identified as
        having JCT potential, even if the 3 refunds exceed $2 million in total, because the returns
        could be filed at different times. This would be advantageous for the taxpayer who could
        not file for a tentative refund (which results in a quick refund disbursement) and did not
        want to wait for the full JCT review process before receiving the refund. Separate refund
        claims may be worked by different IRS employees, and there currently is no requirement
        for an employee working a refund claim that may have JCT review potential to make any
        entry in the history section of the taxpayer’s account that would alert other employees
        that JCT potential exists. Under current Internal Revenue Manual (IRM) procedures, an
        IRS employee is not required to check previous tax periods for paid or allowed refund
        claims that would indicate JCT consideration is warranted.



                                                                                              Page 4
                              Efforts to Identify and Process Potential
                       Joint Committee on Taxation Cases Can Be Improved



   •   The large number of processing sites attempting to identify JCT cases makes it
       difficult to consistently identify cases that meet the criteria for JCT review.
       Although the JCT review process is centralized within the IRS Large and Mid-Size
       Business Division, taxpayers can file their refund documents at any one of eight
       processing sites throughout the United States. Corporate amended tax returns and
       expedited refund requests are processed at the Cincinnati, Ohio; Ogden, Utah; or
       Philadelphia, Pennsylvania, processing sites while individual amended tax returns and
       refund requests are filed at one of the other five processing sites. Although the daily
       operations of the various processing units use the IRM as their main guidance document,
       almost every processing site has a set of local operating procedures, thereby ensuring not
       every site is operating in the same manner.
   •   The IRM contains no sections specifically designed to discuss the identification and
       reporting of refunds to the JCT. Instructions regarding JCT cases are fragmented
       throughout the IRM. For example, IRM § 4.36 provides information on the identification
       and process of working on a JCT case and contains a great deal of information.
       However, this IRM section is part of the Examination Manual and deals only with
       refunds that have been identified through IRS processing as potential JCT cases.
       References throughout the processing sections of the IRM are scattered and do not
       provide adequate information to identify all possible scenarios that can create a potential
       JCT case.
When it does not receive refund case reports for all refunds that meet the specific legal criteria,
the JCT cannot adequately fulfill all of its tax law oversight functions. In addition, the JCT staff
review the reports they receive with a focus on the technical aspects of the cases and the IRS’
resolution of the issues presented. The review enables the JCT staff to become familiar with
specific issues in individual industries and to find problems in the administration of the law.
Problems in the statutory language may result in an amendment to the statute, while problems
with IRS rulings or regulations may result in a request that the IRS clarify or reconsider its
position. These functions cannot be accomplished if the JCT does not receive all the information
it should from the IRS.

Recommendation
Recommendation 1: We recommended the Commissioner, Wage and Investment Division,
analyze the potential JCT cases identified during the review to determine the controls that need
to be addressed. Among the measures that could be considered are (1) reviewing and revising
the various IRM sections that address the identification of potential JCT cases to ensure all cases
are identified, (2) obtaining periodic computer extracts from the IRS computer system to identify
all large-dollar refunds, and (3) adding an entry, where appropriate, to the history section of the
taxpayer’s account to notate that a refund currently being processed could have JCT review
potential.

                                                                                             Page 5
                             Efforts to Identify and Process Potential
                      Joint Committee on Taxation Cases Can Be Improved



Management’s Response: Management agreed with our recommendation to analyze the
potential JCT cases identified during our review to determine if any controls or procedures need
to be changed or modified. Management has requested the supporting documentation associated
with these cases and expects to complete their review by November 15, 2006. After completion
of their review, management also agreed to consider each of the three corrective actions
suggested in our recommendation. Management stated that adoption of these or other corrective
actions will depend on the outcome of their analysis.




                                                                                          Page 6
                                 Efforts to Identify and Process Potential
                          Joint Committee on Taxation Cases Can Be Improved



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether refunds that met the criteria for
JCT review were correctly identified and properly reported. To accomplish our objective, we:
I.      Determined if current processing controls in the Wage and Investment Division Accounts
        Management function ensure all refunds that meet the criteria for JCT review were
        identified and processed to the proper area for further action.
        A. Reviewed the IRM regarding manual refunds that relate to the identification and
           processing of JCT cases and identified the current controls in place to ensure manual
           refunds in excess of $2 million that meet JCT criteria are routed to the appropriate
           unit in the Compliance function. We also reviewed other sections of the IRM dealing
           with JCT cases and evaluated controls currently in place.
        B. Interviewed Accounts Management function personnel at the Ogden, Utah, campus1
           and obtained local procedures involving identification and processing of JCT cases.
           We evaluated these local procedures and determined if they were being followed by
           spot checking several cases that were available during our site visit.
        C. Reviewed available training materials (both written and online) for the processing and
           identification of JCT cases. Also, we discussed with Accounts Management function
           personnel what on-the-job training is provided to employees assigned to process
           manual refunds related to JCT cases.
        D. Conducted a walkthrough of the manual refund processing area at the Ogden, Utah,
           campus to identify any inconsistencies in processing. We attempted to spot check
           manual refund cases that had been identified as meeting JCT criteria; since none were
           available we spot checked several cases that were not identified as requiring JCT
           processing and reviewed them to determine if the controls were adequate.
        E. Determined if any management reports were generated regarding manual refunds
           meeting the criteria as JCT cases.
        F. Requested Wage and Investment Division inventory reports of JCT cases received
           and processed and their eventual disposition. Because no inventory reports are



1
 The data processing arms of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 7
i
                                      Effotts to Identify and Process Potential
                               Joint Committee on Taxation Cases Can Be Improved



                  compiled or available, we requested a computer listing fiom the IRS Business Master
                  File2 to identify manual refunds that appear to meet JCT criteria.
             G . Requested and received a computer extract fiom the IRS Master File3identifying all
                 individual and corporate tax returns processed for Tax Years 2002 through 2004 that
                 received (1) a single refund in excess of $2 million for 1 tax period, (2) single refunds
                 in multiple concurrent years that totaled $2 million or more in the aggregate, or
                 (3) multiple refunds in multiple concurrent years that totaled $2 million or more. We
                 validated the data received by tracing data in each sample to the corresponding tax
                 accounts on the Master File.
             H. Our initial Individual Master File4 extract resulted in the identification of 303 refunds
                for Tax Years 2002 through 2004. We selected a sample of 835refunds fiom this
                extract by identifying taxpayers with refunds above the JCT dollar criteria of
                $2 million who had either (1) no other refunds for the same period or (2) if other
                refunds were present, the taxpayer's other refunds were also (a) greater than the JCT
                dollar criteria, or (b) could not reduce the selected refund to below $2 million if this
                was later reversed. We analyzed these refunds to determine if the refund met basic



                  reports issued to the JCT and JCT cases currently in progress.
             I.    Our initial Business Master File extract resulted in the identification of 732 refunds in
                   Tax Years 2002 through 2004. A sample of 458 refunds was selected fiom this
                  extract by eliminating those corporate taxpayers who were large enough to most
                  likely be part of the Coordinated Examination Program and, therefore, under
                  continuous examination coverage. This examination coverage would ensure that JCT
                  identification would be made. The sample was sent to the IRS for comparison to the
                  IRS' database of reports issued to the JCT and JCT cases currently in progress. The
                  reply from IRS noted that 35 refunds had JCT reports submitted. We selected a
                  judgmental sample from the remaining cases that were not identified as meeting JCT
                  criteria by selecting every fourth taxpayer case, which resulted in a sample of
                  43 taxpayers with 111 refunds that we analyzed to determine if the refunds met basic



    2
      The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
    employment taxes, income taxes on businesses, and excise taxes.
    3
      The IRS database that stores various types of taxpayer account information. This database includes individual,
    business, and employee plans and exempt organizations data.
      The IRS database that maintains transactions or records of individual tax accounts.
    5
      We did not select statistical samples here or in Step I because we did not plan to project the results over the
    population.
                                                                                                                 Page 8
                  Efforts to Identify and Process Potential
           Joint Committee on Taxation Cases Can Be Improved



JCT criteria. Of these 111 refunds, we found 9 that would meet JCT criteria (in
addition to the 35 that were already identified by the IRS).




                                                                              Page 9
                            Efforts to Identify and Process Potential
                     Joint Committee on Taxation Cases Can Be Improved



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Brian F. Kelly, Lead Auditor
Philip W. Peyser, Senior Auditor
Nancy E. VanHouten, Management Auditor
James Adkisson, Information Technology Specialist




                                                                                        Page 10
                          Efforts to Identify and Process Potential
                   Joint Committee on Taxation Cases Can Be Improved



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
      Commissioner, Large and Mid-Size Business Division SE:LM
      Commissioner, Wage and Investment Division SE:W




                                                                        Page 11
                                  Efforts to Identify and Process Potential
                           Joint Committee on Taxation Cases Can Be Improved



                                                                                                  Appendix IV

                                   Tax Form Comparison

                                             Individual Taxpayers
Amended U.S. Individual Income Tax Return (Form 1040X)
    •    When To File: Must be filed within 3 years of the date the original return was filed (in
         general).
    •    Where To File: Mailed to the IRS Center where the taxpayer files the original return (per
         IRS instructions).
    •    Tax Years Involved: A separate Form 1040X is required for each year that is being
         amended.
    •    Restrictions On Usage: None.
    •    Processing Time: Per the 1040X instruction sheet, 2 to 3 months. However, if the IRS
         does not process the Form 1040X within 6 months from the date filed, the taxpayer can
         file suit in court.
Application for Tentative Refund (Form 1045)
    •    When To File: Must be filed within 1 year after the end of the year in which an NOL1 or
         unused credit arose.
    •    Where To File: Mailed to the IRS Center where the taxpayer files the original return (per
         IRS instructions).
    •    Tax Years Involved: Up to 3 tax years can be adjusted on the same Form 1045.
    •    Restrictions On Usage: Refund must result from either (1) carryback of an NOL,
         (2) carryback of an unused general business credit, (3) carryback of a net I.R.C. § 12562
         contracts loss, or (4) overpayment of tax due to a claim of right adjustment
         (I.R.C. § 1341 (b) (1)3).
    •    Processing Time: The IRS is required to process the application within 90 days from the
         later of (1) the date on which the taxpayer filed the complete application or (2) the last
         day of the month that includes the due date (including extensions) for filing the
         taxpayer’s income tax return.




1
  A benefit in the tax law that permits a business to carry an operating loss back 2 years or forward 20 years to apply
against a profitable year to reduce the business’ tax liability.
2
  26 U.S.C. § 1256 (2002)
3
  26 U.S.C. § 1341(b)(1) (1999)
                                                                                                             Page 12
                                   Efforts to Identify and Process Potential
                            Joint Committee on Taxation Cases Can Be Improved



                                         Corporate Taxpayers
Amended U.S. Corporation Income Tax Return (Form 1120X)
      •    When To File: Must be filed within 3 years of the date the original return was filed (in
           general).
      •    Where To File: Mailed to the IRS Center where the corporation filed its original return.
      •    Tax Years Involved: A separate Form 1120X is required for each year that is being
           amended.
      •    Restrictions On Usage: Instructions note various situations in which Form 1120X should
           not be used (e.g., quick refund of estimated taxes and request for approval of change in
           accounting method). Instructions for Form 1139 (see below) note that a Form 1120X is
           necessary if the NOL or capital loss carryback results in the release of prior year’s
           foreign tax credits.
      •    Processing Time: Per the 1120X instruction sheet, it often takes 3 to 4 months to process
           the Form.
Corporation Application for Tentative Refund (Form 1139)
      •    When To File: Must be filed within 12 months after the end of the tax year in which an
           NOL, net capital loss, or unused credit arose.
      •    Where To File: Mailed to the IRS Center where the corporation filed its income tax
           return.
      •    Tax Years Involved: Up to 3 preceding tax years can be adjusted on the same Form.
      •    Restrictions On Usage: Refund must result from either (1) carryback of an NOL,
           (2) carryback of an unused general business credit, (3) carryback of a net capital loss, or
           (4) overpayment of tax due to a claim of right adjustment (I.R.C. § 1341 (b) (1))4.
      •    Processing Time: The IRS is required to process the application within 90 days from the
           later of (1) the date the corporation filed the complete application or (2) the last day of
           the month that includes the due date (including extensions) for filing the corporation’s
           income tax return for the year in which the credit arose.




4
    26 U.S.C. § 1341(b)(1) (1999)
                                                                                              Page 13
              Efforts to Identify and Process Potential
       Joint Committee on Taxation Cases Can Be Improved



                                                  Appendix V

Management’s Response to the Draft Report




                                                           Page 14
       Efforts to Identify and Process Potential
Joint Committee on Taxation Cases Can Be Improved




                                                    Page 15
